AAAAAAAAAAAAAAA




                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audit Services




  Special Report

 The National Nuclear Security
 Administration's Implementation of
 the 2003 Design Basis Threat




 DOE/IG-0705                           October 2005
SPECIAL REPORT ON THE NATIONAL NUCLEAR SECURITY
ADMINISTRATION'S IMPLEMENTATION OF THE 2003 DESIGN
BASIS THREAT


TABLE OF
CONTENTS

   Implementation of the Design Basis Threat

   Details of Finding ...........................................................................................1

   Recommendations...........................................................................................9

   Comments .....................................................................................................10


   Appendices

   1. Objective, Scope, and Methodology........................................................11

   2. Prior Reports ............................................................................................13

   3. Management Comments ..........................................................................15
Implementation of the 2003 Design Basis Threat

2003 Design Basis   The National Nuclear Security Administration (NNSA) has
Threat Progress     experienced delays in implementing permanent upgrades,
                    including new technologies, to meet the increased threat
                    identified in the 2003 Design Basis Threat (DBT). Instead,
                    NNSA is relying on more costly interim measures to meet
                    the requirements of the DBT by the end of Fiscal Year
                    (FY) 2006. The Department has not, however, fully
                    evaluated the effectiveness of either the interim measures
                    or the planned permanent upgrades for all sites that possess
                    special nuclear material.

                          Permanent Upgrades and Use of New Technologies

                    In February 2005, NNSA reported that it would not meet its
                    original FY 2005 performance goal to complete 25 percent
                    of its DBT implementation plans and thus reduced its goal
                    to 12.5 percent. Each of the five sites included in our
                    review had not completed all permanent security upgrades
                    scheduled for FYs 2004 and 2005, such as:

                      •    completing designs of facilities intended to reduce
                           vulnerabilities;

                      •    constructing permanent upgrades to protective force
                           training facilities; and,

                      •    hiring and training additional permanent protective
                           forces.

                    Also included in the delayed permanent upgrades were
                    measures for the procurement and implementation of
                    detection technologies and basic equipment needed to
                    support protective force operations. Technologies, which
                    would enhance system effectiveness but had not been
                    procured, included such items as thermal imaging, laser
                    detection, ground surveillance, Doppler radar, and remote
                    cameras and sensing equipment. Basic equipment that sites
                    were forced to delay included items such as protective
                    vests, weapons, ammunition, specialized training
                    ammunition for new weapons, and armored vehicles.

                    As a result of these delays, NNSA sites will now have to
                    implement, in one year, approximately 87 percent of the
                    upgrades scheduled to be completed by the end of FY
                    2006. Since several sites reported that the FY 2006 budget
                    request does not cover their implementation needs nor fully


Page 1                                                        Details of Finding
________________________________________________________________________


                       fund maintaining the measures already in place, it is
                       questionable whether the remaining upgrades can be
                       implemented by the end of FY 2006.

                       In addition to the delays in meeting the 2005 performance
                       goal, the audit also disclosed that the majority of planned
                       upgrades included in NNSA site plans focused on
                       providing for permanent protective force personnel
                       increases and related equipment and not permanent
                       infrastructure upgrades and technologies. For example, at
                       three of five sites visited, we found that between 68 and 92
                       percent of the projected cost of the site's approved
                       implementation plans through FY 2006 was attributable to
                       protective forces and their equipment. In some cases,
                       however, those permanent security infrastructure upgrades
                       that were planned were not scheduled to be completed until
                       after September 30, 2006. This is contrary to the
                       Secretary's intent to focus on permanent changes that
                       emphasized the use of innovation and technology.

                                      Reliance on Interim Measures

                        Despite the delays experienced in implementing permanent
                        upgrades, NNSA expects to meet the threat established in
                        the 2003 DBT, in part, through the continued use of interim
                        measures. While these interim measures help sites address
                        some of the threats facing the Department, they may not be
                        the most cost-effective alternatives. To illustrate, until
                        permanent upgrades can be implemented, sites:

                         •   Temporarily expanded their protective force capacity;

                         •   Changed security procedures; and,

                         •   Rescheduled some mission operations.

                        As an interim measure to meet the DBT requirements, four
                        sites included in our review temporarily expanded
                        protective force capacity through increased use of overtime.
                        These sites incurred significant rates of overtime. For
                        example, in FY 2004 there was an overtime rate of 42
                        percent at Sandia National Laboratories in New Mexico; 39
                        percent at the Nevada Test Site; 28 percent at the Y-12
                        National Security Complex; and, 17 percent at the Pantex
                        Plant. These sites also reported that they suspended or


Page 2                                                           Details of Finding
________________________________________________________________________


                        reduced training and performance testing to ensure that
                        protective force personnel were available for critical duties.

                       During our audit, Department officials acknowledged that
                       the current rates of protective force overtime and mission
                       impacts are costly to the Department and are not tenable
                       long-term solutions to meeting the enhanced security
                       requirements contained in the 2003 DBT. This conclusion
                       is consistent with the finding of our report on Protective
                       Force Training at the Department of Energy's Oak Ridge
                       Reservation (DOE/IG-0694, June 2005). In that report, we
                       found evidence that working excessive overtime negatively
                       impacted the ability or willingness of some protective force
                       personnel to complete required physical fitness training.

                       NNSA has taken some actions to address protective force
                       overtime by hiring additional personnel, reducing delays in
                       processing clearances for new hires, and meeting with labor
                       unions to discuss cross-cutting issues and concerns.
                       Nevertheless, NNSA believes that the sites' hiring of
                       additional protective force personnel is needed to meet the
                       increased threat in the 2003 DBT policy. While we
                       recognize that hiring additional protective force personnel
                       is necessary, our concern is that the limited time frame for
                       implementation caused sites to rely on protective force
                       enhancements rather than allowing time for them to
                       identify the most cost-effective alternatives.

                       Other interim measures sites implemented included
                       procedural changes in security, such as increasing stand off
                       distances around facilities and sites, and increasing
                       personnel and vehicle checks, each of which required the
                       use of additional protective forces. Finally, we noted that
                       one site temporarily changed how it scheduled mission
                       activities to meet the 2003 DBT requirements.
                       Specifically, the site rescheduled tests using special nuclear
                       material because it did not have the capability to protect
                       operations at multiple locations simultaneously.




Page 3                                                            Details of Finding
________________________________________________________________________



                                 Evaluation of Interim Measures and Plans

                        Although NNSA believes it will meet the threat established
                        in the 2003 DBT, neither the Department nor NNSA have
                        fully analyzed or evaluated the operational effectiveness of
                        interim measures and implemented upgrades. According to
                        security policy, the Office of Independent Oversight and
                        Performance Assurance (OA) is responsible for conducting
                        inspections to test the sites' actual performance in meeting
                        Departmental security requirements, including DBT
                        implementation measures.

                        Since May 2003, OA had conducted comprehensive
                        inspections of the security posture at only three of the seven
                        NNSA sites that have special nuclear material. However,
                        two of the sites that had comprehensive inspections were
                        not tested against the full 2003 DBT requirements, but only
                        against progress made at the time of the inspection.
                        Guidance from the Deputy Secretary required that
                        inspections test security against progress rather than the full
                        DBT requirement because full implementation was not
                        scheduled until the end of FY 2006. At three of the
                        remaining four sites, OA conducted a special review of
                        protective force management and capabilities and found
                        that Departmental site offices did not always provide
                        effective oversight of contractor safeguards and security
                        programs. Contractors also did not always have effective
                        self-assessment programs.

                        OA had not conducted comprehensive inspections at all
                        NNSA sites that have special nuclear materials because it
                        focused attention on conducting comprehensive inspections
                        at three NNSA sites that were facing major challenges in
                        implementing the 2003 DBT and providing assistance with
                        identifying and evaluating technologies. OA officials
                        stated that they stopped conducting all inspections from
                        September 2004 through March 2005 in order to visit sites
                        and assist them in assessing technologies and strategies for
                        meeting future DBT requirements. OA tentatively plans to
                        conduct comprehensive inspections at two additional sites
                        during FY 2006, as well as to continue site assistance visits.
                        Based on current plans, two sites will not have had
                        comprehensive inspections by the end of FY 2006 to
                        evaluate their security postures. OA has not scheduled
                        comprehensive inspections to be conducted in FY 2007.

Page 4                                                            Details of Finding
________________________________________________________________________



                         Similarly, NNSA security officials at several sites had not
                         fully analyzed the effectiveness of interim measures and
                         planned upgrades. For example, two sites had not
                         completed vulnerability analysis of special nuclear material
                         convoy operations. Five sites had not analyzed all of the
                         facilities that will require upgrades to meet the 2003 DBT,
                         although analysis of additional facilities was scheduled for
                         completion during FY 2005. Finally, each site will need to
                         conduct analysis and testing to ensure that measures work
                         as expected after upgrades are completed. Such oversight
                         and self-assessment programs are critical for evaluating the
                         Department's progress in meeting DBT requirements.

Planning, Budgeting,     NNSA experienced delays in implementing changes and
and Evaluation for the   using new technologies because the FY 2006
Design Basis Threat      implementation date required sites to focus on short-term
                         solutions. Specifically, sites did not have sufficient time to
                         fully integrate security planning and budgeting and to
                         execute a coordinated effort to identify and evaluate cost-
                         effective permanent upgrades, including new technologies.
                         Additionally, site plans for meeting DBT security
                         requirements have not been fully evaluated and tested due
                         to the lack of analytical tools and competing priorities.

                                    Integration of Planning and Budgeting

                         Due to time constraints, planning and budgeting for the
                         2003 DBT was not fully integrated to ensure that funding
                         was available to support sites' approved implementation
                         plans. To illustrate, site DBT plans were approved in
                         February 2004, which was too late for costs to be included
                         in the 2004 budget or the 2005 budget request.
                         Consequently, funding for DBT requirements was provided
                         in FY 2004 through a reprogramming action, but was not
                         available for expenditure until late in the fiscal year. FY
                         2005 funding for new DBT implementation activities was
                         also delayed because of the continuing budget resolution at
                         the beginning of the fiscal year. Also the funding received
                         was less than what sites estimated was needed to
                         implement scheduled security upgrades. Specifically,
                         NNSA sites estimated approximately $203 million was
                         needed in FYs 2004 and 2005, but received only $141
                         million of this amount. The delay and reduction in funding
                         caused some upgrades to be delayed. For example, NNSA
                         officials indicated that sites missed a major military

Page 5                                                             Details of Finding
________________________________________________________________________


                        procurement for items needed to upgrade protective force
                        equipment, which resulted in further postponing some
                        implementation activities, even after funding was available.

                        Future upgrades could also be affected by reduced funding.
                        During FY 2006, sites estimate they will need about $148
                        million to implement the remaining DBT upgrades, but
                        only $122 million has been requested in the current budget
                        for this purpose.

                        NNSA recognizes that full integration between security
                        planning and budgeting will help ensure timely receipt of
                        funding and implementation of the DBT in a cost effective
                        manner and has taken steps to improve the process. For
                        example, we noted that the safeguards and security
                        program began using NNSA's formal planning,
                        programming, budgeting, and evaluation process for the FY
                        2006-2010 planning period, including DBT upgrades.
                        Additionally, from September 2004 through March 2005,
                        the site assistance visits focused on helping sites determine
                        what should be done to meet the 2004 DBT by the end of
                        FY 2008. The benefits of integrated planning were
                        demonstrated at one site that estimated it could avoid
                        approximately $100 million in costs through improved
                        coordination of security upgrades with long-term plans for
                        site modernization and special nuclear material
                        consolidation.

                        The actions NNSA has taken to improve its planning and
                        budgeting are commendable, however, more needs to be
                        done to meet the DBT threat in a cost-effective manner.
                        For example, the Department recognizes the need to
                        improve integration of long-term security plans with sites’
                        programmatic needs and, in its response to the draft report,
                        provided examples of efforts it plans to undertake to
                        improve coordination between the security and weapons
                        program.

                           Planning and Evaluation of Permanent Upgrades and
                                             Technologies

                        Officials at several of the sites informed us that the FY
                        2006 implementation target date limited their ability to
                        identify and evaluate more cost-effective approaches to




Page 6                                                           Details of Finding
         implementing the DBT. Specifically, sites claimed that
         they did not have sufficient time to (a) plan and implement
         permanent upgrades and new technology, including
         conducting the necessary safety reviews, providing
         training, and developing operating procedures, and (b)
         acquire data on operational performance of new
         technologies. Our analysis of site plans and
         implementation schedules, including those on performance
         testing of new technologies, support management's
         observations on the target date's impact on planning.

         Several sites told us that they were interested in deploying
         improved technologies but faced a number of challenges.
         For example, sites were interested in improved
         technologies for distinguishing between "friend or foe" but,
         as of March 2005, the technology had not been sufficiently
         developed for immediate deployment. SSA advised that
         this technology is now firmly scheduled for deployment in
         the field by the end of FY 2006.

         In yet another example of challenges faced by sites in
         deploying technologies, one site was interested in
         deploying a remotely operated weapon system; however,
         the Defense Nuclear Facilities Safety Board raised safety
         concerns about the technology. The site worked with the
         Department's technology development programs to obtain
         data on the operational and safety aspects of using this
         technology. Subsequent to our field visit, NNSA and
         Office of Security and Safety Performance Assurance
         (SSA) officials reported that the site operationally deployed
         the system in late June 2005. However, Department
         officials pointed out that other sites interested in deploying
         the remotely operated weapon system will also have to
         conduct operational and safety tests and analyses before
         deploying it.

         We noted that some sites that had begun long-term
         planning prior to the issuance of the 2003 DBT were able
         to incorporate solutions in their plans, such as infrastructure
         upgrades and technologies, which should constrain security
         costs. For example, one site identified technology options
         that, if successfully implemented, are expected to cut
         protective force hiring by about half, which could result in
         a savings of about $15 million per year.




Page 7                                             Details of Finding
________________________________________________________________________


                       In recognition of the difficulties that sites had in
                       identifying, evaluating, and implementing technologies,
                       NNSA and SSA partnered to compile information on
                       technologies that are or will be available for
                       implementation in the next few years. For example, two
                       NNSA sites are working on an advanced armored vehicle.
                       During the vehicle's demonstration deployment, the sites
                       are developing performance information and identifying the
                       strengths and weaknesses of the design. This information
                       will be used to further improve the design. Other sites are
                       piloting technologies such as enhanced explosive detection
                       equipment, chemically hardened patrol vehicles, and long-
                       range detection systems, such as unmanned aerial vehicles.

                                              Analytical Tools

                        In order to evaluate changes in security measures, sites
                        need to run simulations and exercises to determine their
                        effectiveness in countering security threats. Three of the
                        five sites we visited informed us that they did not have
                        sufficient access to analytical tools to fully evaluate the
                        effectiveness of their planned upgrades and interim
                        measures in meeting the 2003 DBT requirements. For
                        example, one site which did not have on-site simulation
                        capability reported that it was unable to obtain sufficient
                        time at another site's simulation laboratory because of the
                        high demand for the laboratory's resources and lack of
                        timely funding.

                        Department officials acknowledged that sites had not
                        performed enough analysis to provide NNSA's
                        Administrator with an analytical basis for selecting among
                        the proposed activities that would yield the greatest
                        enhancement to site security and be the most cost-effective.
                        Similarly, NNSA relied primarily on professional judgment
                        to approve the 2003 DBT site implementation plans and did
                        not have the formal analytical capability to identify the
                        most cost-effective options. NNSA is currently working
                        with the Idaho National Laboratory to develop this
                        capability for approving future DBT plans. The need for
                        analytical tools will increase as sites plan and implement
                        the 2004 DBT policy, making it critical for NNSA to
                        continue to address these issues in a timely manner.




Page 8                                                           Details of Finding
Future DBT        The national security mission at NNSA's nuclear weapons
Implementation    production and research facilities includes the protection of
                  nuclear weapons and special nuclear material, which can be
                  used to make nuclear weapons. As noted by the Secretary,
                  these critical national defense assets "simply put, must not
                  be allowed to fall into the wrong hands." Consequently, it
                  is critical that NNSA provides a robust safeguards and
                  security system at its sites that possess special nuclear
                  material. However, to avoid the risk of making security
                  investment decisions that are not cost effective in the long
                  term, NNSA must ensure that permanent security upgrades
                  are part of a strategic approach that integrates security with
                  program and infrastructure planning. Additionally, NNSA
                  must fully implement and evaluate the operational
                  effectiveness of the upgrades and interim measures sites are
                  installing to meet the threat defined in the 2003 DBT. Until
                  NNSA fully completes these actions, it lacks assurance that
                  its national security assets and mission operations are being
                  sufficiently protected in the most cost-effective manner.

RECOMMENDATIONS   Since NNSA has experienced delays in implementing
                  changes, including new technologies, it is critical that sites
                  maintain momentum towards meeting the 2003 DBT
                  security requirements in order to protect national security
                  assets and operations, as well as to provide a foundation for
                  meeting the more rigorous requirements of the 2004 DBT.
                  Accordingly, we recommend that the Administrator,
                  NNSA:
                     1. Ensure that the Office of Defense Nuclear Security
                        makes better use of the planning, programming,
                        budgeting and evaluation process by:
                           a) Developing a long-term strategic approach
                              that includes long-term plans for infrastructure
                              upgrades; and,
                           b) Coordinating security with programmatic
                              plans, including material consolidation plans.
                     2. Make available analytical simulation tools to
                        evaluate the effectiveness of security upgrades.
                  We also recommend that the Director, SSA conduct
                  comprehensive inspections after FY 2006 of all NNSA sites
                  with special nuclear material to determine whether they
                  have met the requirements of the 2003 DBT.



Page 9                                                    Recommendations
MANAGEMENT   Both NNSA and SSA management concurred with the
REACTION     recommendations. NNSA believes it has made significant
             progress in achieving the intent of the recommendations
             and provided examples of efforts to improve coordination
             between the security and weapons program. NNSA
             believes it can achieve its goal to implement the 2003 DBT
             by the end of FY 2006 as originally planned. NNSA
             further stated that the Department's weapons, materials and
             facilities are secure and that the challenge lies in the
             implementation of the enhanced security requirements.

             SSA shared many of the OIG's concerns regarding the
             slower than expected progress towards implementation of
             the 2003 DBT and greater than expected emphasis on
             increasing protective force numbers. However, officials
             believe that a number of sites will succeed in meeting the
             date. Inspections performed after the end of FY 2006 will
             place special emphasis on reporting the implementation
             status of the 2003 DBT.


AUDITOR      Management's comments are responsive to our
COMMENTS     recommendations. We made changes to the report, as
             appropriate, to address NNSA's and SSA's technical
             comments.




Page 10                                                     Comments
Appendix 1


OBJECTIVE     The objective of this audit was to evaluate the status of
              NNSA's effort to implement the May 2003 DBT by the end
              of FY 2006, using permanent upgrades that are both cost-
              effective and technologically advanced.


SCOPE         The audit was performed between August 2004 and August
              2005. The audit examined the May 2003 Design Basis
              Threat Implementation Plan activities. Audit work was
              performed at the National Nuclear Security Administration,
              including Headquarters, the Nevada Test Site, the Office of
              Secure Transportation, the Pantex Plant, Sandia National
              Laboratories, and the Y-12 National Security Complex. In
              addition, work was performed at the Office of Security and
              Safety Performance Assurance.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Reviewed applicable Public Laws, Department
                     orders, other departmental guidance, related
                     correspondence and contracts;

                 •   Analyzed prior OIG and Government
                     Accountability Office reports;

                 •   Reviewed compliance with the Government
                     Performance and Results Act of 1993;

                 •   Analyzed key documents related to the NNSA sites
                     May 2003 Design Basis Threat Implementation
                     Plans, including the sites quarterly implementation
                     reports;

                 •   Reviewed Office of Security and Safety
                     Performance Assurance activities related to the
                     implementation of the Design Basis Threat,
                     including Office of Independent Oversight and
                     Performance Assurance inspections that were
                     conducted after May 2003 for the NNSA sites; and,

                 •   Interviewed key headquarters, field, and contractor
                     personnel.




Page 11                           Objective, Scope, and Methodology
Appendix 1 (continued)


                    The audit was conducted in accordance with generally
                    accepted government auditing standards for performance
                    audits and included tests of internal controls and
                    compliance with laws and regulations to the extent
                    necessary to satisfy the objective of the audit. Accordingly,
                    we assessed the significant internal controls and
                    performance measures established under The Government
                    Performance and Results Act of 1993 and found that there
                    were measures related to overall safeguards and security
                    performance. With the exception of NNSA's programmatic
                    measure, few of the measures were specifically related to
                    the implementation of the May 2003 Design Basis Threat.
                    Because our review was limited, it would not necessarily
                    have disclosed all internal control deficiencies that may
                    have existed at the time of our audit. We did not conduct a
                    reliability assessment of computer-processed data because
                    we did not consider such data critical to achieving our audit
                    objective. Management waived the exit conference.




Page 12                                 Objective, Scope, and Methodology
Appendix 2


                                  PRIOR REPORTS


OFFICE OF INSPECTOR GENERAL REPORTS

  •   Management of the Department's Protective Forces (DOE/IG-0602, June 2003).
      The audit disclosed that a number of improvements had been made in the
      management of the protective force program; however, the Department still faces
      a number of challenges that could adversely affect the program. Among the
      challenges are morale and potential retention problems due to mandatory overtime
      and declining training opportunities and significant increases in unscheduled
      overtime costs. The Department has taken a number of actions to reduce the
      impact of heightened security on overtime costs; however, additional actions are
      required to improve the Department's workforce.

  •   Protective Force Response to a Security Incident at Sandia National Laboratory,
      California (DOE/IG-0658, August 2004). A one-ton utility truck, dragging a
      chain link fence, entered a Federal Property Protection Area. The Office of
      Inspector General discovered that the vehicle arrest systems (pop-up barriers)
      were not energized and could not deploy due to the lack of prior approval. NNSA
      Federal and contractor security officials later approved the activation procedures
      in May 2004; approximately ten months after the installation of the barriers was
      completed. No satisfactory explanation was given for the delay of approval. In
      addition, once the vehicle was stopped, Department/NNSA security procedures
      were not followed.

  •   Physical Security Improvement Recommendations at Los Alamos National
      Laboratory (INS-L-04-02, June 2004). The inspection was conducted to
      determine whether the laboratory took action to address identified physical
      security related recommendations. The inspection found that final resolution of
      the recommended actions is dependant upon full implementation of the
      laboratory's DBT Implementation Plan.

  •   The Department's Basic Protective Force Training Program (DOE/IG-0641,
      March 2004). The audit disclosed that the core basic training curriculum had
      been applied inconsistently throughout the complex. A significant and relatively
      large number of modifications were identified during the audit which raised
      concern as to the curriculum's validity and its usefulness as a benchmark for
      evaluating the performance of protective force training.

GOVERNMENT ACCOUNTABILITY OFFICE (GAO) REPORTS

  •   DOE Needs to Resolve Significant Issues Before It Fully Meets the New Design
      Basis Threat (GAO-04-623, April 2004). GAO found that the Department has
      taken a series of actions in response to the terrorist attacks of September 11, 2001,


Page 13                                                                     Prior Reports
Appendix 2 (continued)


      but must take additional actions to ensure a timely and cost effective defense.
      The Department has been slow to resolve significant issues or their efforts have
      been expensive. The Department's deadline to meet the requirements of the new
      DBT is the end of fiscal year 2006, which is not realistic for some sites.

  •   DOE Faces Security Challenges in the Post September 11, 2001, Environment
      (GAO-03-896TNI, June 2003). The audit reported that NNSA has not been fully
      effective in managing its safeguards and security program in four key areas.
      These areas are: (1) NNSA has not fully defined clear roles and responsibilities
      for headquarters and site operations, (2) inconsistencies have emerged among
      NNSA sites on how they assess contractors' security activities, (3) analysis plans
      are completed inconsistently in preparing for corrective action plans, and (4)
      NNSA falls short at its site offices in the number of staff and in expertise. As a
      result, NNSA cannot be assured that its contractors are working to maximum
      advantage to protect critical facilities and materials from adversaries seeking to
      inflict damage.

  •   NNSA Needs to Better Manage Its Safeguards and Security Program (GAO-03-
      471, May 2003). GAO found that NNSA has not been fully effective in managing
      its safeguards and security program in areas such as defining clear roles and
      responsibilities and allocating staff. As a result, NNSA cannot be assured that its
      contractors are working to maximum advantage to protect critical facilities and
      material from individuals seeking to inflict damage.

OTHER REPORTS

  •   Strengthening NNSA Security Expertise: An Independent Analysis (DE-AD26-
      02NT41465, March 2004). The study team found that NNSA needed to develop a
      comprehensive program for hiring and training federal personnel to oversee its
      contractors security programs. The report also recommends that NNSA revise its
      Safeguards and Security Strategic Plan to identify priorities in the near, mid, and
      long-term and incorporate a proactive risk management approach that pays
      particular attention to the contribution of emerging technologies.




Page 14                                                                   Prior Reports
Appendix 3




Page 15      Management Comments
Appendix 3 (continued)




Page 16                  Management Comments
Appendix 3 (continued)




Page 17                  Management Comments
Appendix 3 (continued)




Page 18                  Management Comments
                                                            IG Report No. DOE/IG-0705




                         CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date ______________________________

Telephone                                     Organization _______________________


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Leon Hutton at (202) 586-5798.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
